<html>
<title> - MAKING IMMIGRATION WORK FOR AMERICAN MINORITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      MAKING IMMIGRATION WORK FOR 
                          AMERICAN MINORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2011

                               __________

                           Serial No. 112-10

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov


                              __________


                    U.S. GOVERNMENT PRINTING OFFICE
64-855 PDF              WASHINGTON: 2011

----------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  








                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TOM REED, New York                   LINDA T. SANCHEZ, California
TIM GRIFFIN, Arkansas                DEBBIE WASSERMAN SCHULTZ, Florida
TOM MARINO, Pennsylvania
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel
                            C O N T E N T S

                              ----------                              

                             MARCH 1, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     5

                               WITNESSES

Carol M. Swain, Ph.D., Professor of Political Science and Law, 
  Vanderbilt University
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Frank L. Morris, Sr., Ph.D., Progressives for Immigration Reform
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19
George Rodriguez, President, San Antonio Tea Party
  Oral Testimony.................................................    28
  Prepared Statement.............................................    30
Wade Henderson, President and CEO, The Leadership Conference on 
  Civil and Human Rights
  Oral Testimony.................................................    32
  Prepared Statement.............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement from William Lucy, President, Coalition of 
  Black Trade Unionists, submitted by the Honorable John Conyers, 
  Jr., a Representative in Congress from the State of Michigan, 
  and Ranking Member, Committee on the Judiciary.................     7
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............    54
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration Policy and Enforcement.............    71
Article from National Review Online, submitted by the Honorable 
  Maxine Waters, a Representative in Congress from the State of 
  California, and Member, Subcommittee on Immigration Policy and 
  Enforcement....................................................    83

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Pedro Pierluisi, a 
  Representative in Congress from Puerto Rico, and Member, 
  Subcommitte on Immigration Policy and Enforcement..............    89
Additional Material submitted by Carol M. Swain, Ph.D., Professor 
  of Political Science and Law, Vanderbilt University............    90


                      MAKING IMMIGRATION WORK FOR 
                          AMERICAN MINORITIES

                              ----------                              


                         TUESDAY, MARCH 1, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, King, Gohmert, 
Poe, Conyers, Lofgren, Jackson Lee, Waters, and Pierluisi.
    Staff Present: (Majority) Andrea Loving, Counsel; Marian 
White, Clerk; and David Shahoulian, Minority Counsel.
    Mr. Gallegly. Good morning. I call to order the 
Subcommittee on Immigration Policy and Enforcement.
    This morning, we are going to start--I guess we will have 
an opening. I have long said the way to solve the problem of 
illegal immigration is fairly simple. First, we must enforce 
our laws and secure the border. Second, we must remove the 
magnets that encourage illegal immigration. And finally, we 
must remove the benefits that make it easy for them to stay.
    With nearly 14 million unemployed Americans, removing the 
magnets--I am sorry, I have got the--excuse me just one moment.
    [Pause.]
    Mr. Gallegly. I am sorry about that. I got just a little 
bit ahead of myself.
    When employers hire foreign workers who will work for less 
than American workers, Americans lose jobs. So importing 
millions of poorly educated foreign workers won't help our 
country. But instead, it will only hinder its growth.
    This morning's hearing is the third in a series which this 
Subcommittee will be examining, the connection between 
immigration and jobs. Today, we are exploring perhaps one of 
the most important aspects of that connection--the effect that 
low-skilled immigrants have on the employment of American 
minorities.
    This topic is often ignored by amnesty supporters. But 
Republicans held a 2007 forum on the issue, and we invited a 
witness to discuss it at the 2010 hearing. So I am pleased that 
the Immigration Subcommittee is taking a formal look at it 
today.
    The 13.9 million unemployed Americans deserve every chance 
possible to find a job, and our focus should be on ensuring 
that every U.S. citizen who is willing to work has a job, 
instead of giving jobs to foreign laborers.
    Many of those impacted by the current job crisis are 
minorities. The unemployment rates for Blacks and Hispanics are 
15.7 and 11.9, respectively. They often compete for jobs with 
low-skilled immigrant workers.
    In 2006, Harvard professor George Borjas researched the 
effects of immigration and the wages and employment rates of 
the African-American population. He concluded that a 10 percent 
immigrant-induced increase in the supply of a particularly 
skilled group reduced the Black wage by 3.6 percent. And he 
found that the same increase in labor supply lowered the 
employment rate of Black men by 2.4 percent.
    Using census data from 1960 to 2000, Borjas determined that 
as immigrants disproportionately increase the supply of workers 
in a particular skill group, there was a reduction in the wage 
of Black workers in that group, a reduction in the employment 
rate, and a corresponding increase in the incarceration rate.
    And young people have been hit especially hard by the 
recession. In fact, of young U.S.-born Blacks ages 18 to 29, 55 
percent have no education higher than a high school diploma, 
and of young U.S.-born Hispanic, 54 percent have no education 
higher than a high school diploma.
    These low-skilled legal workers are the ones who have to 
compete with the jobs with the three-fourths of illegal 
immigrants who have no education beyond high school. They are 
the real victims of the American failed immigration policy. 
Recent research confirms that assertion.
    In August 2010, the report by the Center for Immigration 
Studies noted that according to the U.S. Census Bureau and 
Bureau of Labor Statistics data from 2007 to 2010, younger and 
less educated workers are the most likely to be in competition 
with immigrants, legal and illegal. And in July 2010, a report 
by the Center for Labor Market Studies at Northeastern 
University noted that immigrants--especially less educated, 
undocumented immigrants--provide fierce competition for jobs 
for the Black male teens.
    Several of our witnesses today have seen firsthand the 
impact that mass low-skilled immigration has had on minority 
communities. I look forward to hearing their testimony as we 
move through the hearing.
    And at this point, I would yield to my friend from 
California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Hopefully, all of us in this room can agree on some things. 
I am sure we can all agree that our immigration system should 
be designed to benefit our country, our economy, and all 
American workers. And I know we agree that a functioning system 
means stopping illegal immigration. We can agree that 
unscrupulous employers will exploit immigrant workers and 
undercut American workers, and that can't be.
    I hope we can also agree that our laws should prevent 
employers from using legal temporary workers to displace 
American workers. America needs a system that lets in workers 
only where and when we need them, not where and when we don't.
    Where we do disagree is on how to get to such a system. 
Witness Carol Swain, for example, has often criticized the H-2B 
visa program, and I agree with her.
    Last year, I introduced a bill that would reform that 
program to prevent employers from using H-2B workers to 
undercut U.S. workers. Unfortunately, no one on the other side 
of the aisle joined me in that effort.
    That is perhaps because many of my colleagues believe that 
rather than fix our broken system, we should just keep pressing 
on the enforcement pedal harder. But increased enforcement is 
exactly what we have been doing for 20 years, and everyone 
knows it isn't working.
    Most importantly, we know you can't just keep enforcing a 
broken system. As we have discussed in this Committee's last 
few hearings, simply enforcing our laws in agriculture, for 
example, would actually destroy many millions of jobs held by 
American workers.
    We know that even in this economy, Americans are not 
returning to the fields, and the wage increase necessary to 
entice them there would make U.S. food products no longer 
competitive with imported products. The end result would be the 
closure of America's farms, a less secure America, and the mass 
offshoring of millions and millions of U.S. jobs. These are not 
just farm jobs, but jobs supported by agriculture in 
manufacturing, seed production, processing, packaging, 
distribution, and accounting.
    Studies show that for every farm worker we deport, we may 
be deporting three other jobs held by Americans. This is the 
real math of our complicated economy. Enforcement without 
reform may open up a job over here, only to destroy four over 
there.
    These facts can be hard to accept when our country is 
facing the greatest economic challenge since the Great 
Depression. People are out of work, and many are out of hope. 
Unemployment is stubbornly high, especially in communities of 
color. It is a time when many are eager for answers.
    But we need more than sound bites. We know there are 
unscrupulous employers who capitalize on undocumented workers 
to undercut other employers, but some may point to instances of 
displacement and draw a conclusion about all immigration and 
offer unrealistic prescriptions for mass deportation that will 
harm and not help our communities.
    As policymakers, we need to consider all available 
information. We need to consider that the vast majority of 
economists and all of the most recent research in the area 
confirm that immigrants actually improve the job prospects of 
U.S. workers. Disinterested economic experts, in report after 
report, reach such conclusions.
    While some economists have found slight negative effects on 
the small and shrinking number of Americans without high school 
diplomas, much of the newest research reverses those findings 
and shows that even such workers have benefited from 
immigration. A recent study by the Economic Policy Institute 
finds that workers without high school diplomas saw their wages 
go up because of immigration. It also shows that similar 
positive impacts were experienced by White and Black non-
Hispanic workers alike.
    With African Americans specifically, recent studies by the 
brightest economic minds shows that immigration does not have 
the negative effects that some would suggest. Economist Steven 
Pitts of UC-Berkeley, Bernard Anderson of the University of 
Pennsylvania, Gerald Jaynes of Yale, and Heidi Shierholz of EPI 
conclude that African Americans have generally benefited from 
immigration, as many have moved up as immigrants have moved in.
    These findings have surprised many, including the 
economists themselves. Mr. Jaynes, a professor of economics and 
African-American studies at Yale, himself said--and I quote--
``Despite strong convictions for our hypothesis that 
immigration had large negative effects on Black workers in 
particular, the data forced us to conclude otherwise. Negative 
effects were mostly absent and modest at worst for only a small 
segment of lowest-skilled workers.''
    How can this be? It is because although immigrants fill 
jobs, they also create jobs in various ways. They create jobs 
by consuming goods and services. They also often fill jobs that 
an insufficient number of Americans want to fill, resulting in 
the continued viability of certain industries, like 
agriculture, that support jobs in other industries, like 
manufacturing and processing.
    The challenge we face as policymakers is to reconcile these 
facts in order to develop a system that works for America. My 
colleagues argue that by simply increasing enforcement, we will 
free up jobs for American workers. But this is no jobs plan.
    Their approach may have superficial appeal, but mass 
deportation is hardly smart economic policy. It is a short-
sighted effort that would be costly and would fail. What we 
need to do is roll up our sleeves and fix our laws. We need to 
secure our borders and close off magnets for undocumented 
workers.
    We need to be realistic about this population. We can spend 
billions in a futile attempt to deport them all, or we can 
require them to register, pay taxes, learn English, and ensure 
that they are in the system, following the rules. If we level 
the playing field and prevent exploitation by unscrupulous 
employers, we can protect all workers.
    Our goal must be nothing less than an immigration system 
that actually responds to our economy and serves the interests 
of American businesses and workers. That is the work America 
needs us to do.
    And I yield back, Mr. Chairman.
    Mr. Gallegly. The gentleman from Texas, the Chairman of the 
full Committee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    With unemployment at or over 9 percent for 21 months, jobs 
are scarce. And that is especially true in minority communities 
across the United States.
    According to the Bureau of Labor Statistics, in January, 
the unemployment rate for Blacks was 16 percent, and for 
Hispanics, 12 percent. These unemployment rates are much higher 
than the national average.
    According to the Pew Hispanic Center, 7 million people are 
working in the U.S. illegally. These jobs should go to legal 
workers, many of whom will be minorities.
    Virtually all credible studies show that competition from 
cheap foreign labor displaces American workers, including legal 
immigrants, or depresses their wages. The Center for 
Immigration Studies found that low-skilled workers lose an 
average of $1,800 a year because of competition from illegal 
immigrants for their jobs. That is a significant economic hit.
    A study by Harvard economist George Borjas shows that cheap 
immigrant labor has reduced the wages of American workers 
performing low-skilled jobs by 7.4 percent. That is a huge wage 
cut.
    But research is not the only proof. After illegal workers 
are arrested and detained during Immigration and Customs 
Enforcement worksite enforcement actions, many businesses 
replace them with American minorities.
    Georgia's Crider, Inc., lost over 600 illegal workers after 
an ICE worksite enforcement action. The company increased wages 
a dollar an hour and attracted legal workers, primarily Black 
Americans.
    There are stories like these all over the United States. 
Enforce immigration laws, and unemployed Americans will be back 
on the payroll and earning a living for themselves and their 
families.
    Unfortunately, the Administration has almost stopped 
conducting worksite enforcement actions and prosecuting illegal 
workers. Instead, they conduct I-9 audits and release the 
illegal workers so they can walk down the street and take 
another job from an American worker.
    Each time ICE arrests, detains, or deports an illegal 
worker, it creates a job opportunity for an American worker. 
Each time the Department of Justice brings a criminal action 
against an employer who knowingly hired illegal workers, it 
sends a powerful message that their illegal employment will not 
be tolerated.
    Unfortunately, worksite enforcement has plummeted under the 
Obama administration. Administrative arrests have fallen 77 
percent from 2008 to 2010. Criminal arrests have fallen 60 
percent. Criminal indictments have fallen 57 percent, and 
criminal convictions have fallen 66 percent.
    With millions of Americans unemployed, it is hard to 
imagine a worse time to cut worksite enforcement efforts by 
more than half. Not only could the Administration enforce 
immigration laws to help protect jobs for Americans, but they 
should also expand the use of the E-Verify system. It is the 
easiest way to help an employer know that their workforce is 
legal.
    The Administration needs to be held accountable for not 
doing more for American workers.
    Mr. Chairman, I would also like to welcome all of our 
witnesses today. They are all experts and all friends, and I 
appreciate their being here.
    I yield back.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    At this time, I would recognize the Ranking Member of the 
full Committee, the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman.
    I am very happy to be with you again, Elton Gallegly, on 
this, the third hearing on this subject. And of course, this is 
the first day of the third month of the 112th Congress, and we 
have had on the floor five bills.
    The biggest, of course, was the huge cuts that resulted the 
week before this one, H.R. 1, the continuing appropriation in 
which we introduced some 67 amendments and passed the bill at 
about 4:45 a.m. The second was H.R. 2, the repeal of the 
healthcare law. And that, again, succeeded.
    And the fourth, H.R. 4 was small business paperwork mandate 
elimination, which also came out of this Committee. And 
Thursday, we will have H.R. 3 on the floor, No Taxpayer Funding 
for Abortion Act. And the leadership has now reserved the 6th, 
7th, 8th, 9th, and 10th bills to be determined.
    If this is the approach toward creating jobs, I don't want 
to minimize the effort because there are some important issues 
in this hearing. But remember, both Democrats and Republicans 
campaigned on the notion that we would create jobs, and we are 
creating very few jobs.
    Now this is a very sensitive subject because if we are not 
careful--and I have a very optimistic and expanded view of what 
we can accomplish here today--but the notion that is underneath 
the surface of pitting African-American workers against 
Hispanic workers and immigrants is so abhorrent and repulsive 
to me that I want to get it on the table right now.
    And I will be watching very closely for anybody that tries 
to suggest that we are going to divide these two minorities who 
have much more things in common than they have in difference. 
And so, this becomes very, very important.
    Now I was hoping that we could get the president of the 
Coalition of Black Trade Unionists, Bill Lucy, who is, in 
addition, an executive board member of the AFL-CIO, who spent 
his whole life working in this. But unfortunately, he wasn't 
available, and I presume that the Chair would have been 
appropriately welcoming this witness as well.
    But he has a statement to submit.
    [The information referred to follows:]
            Prepared Statement of William Lucy, President, 
                   Coalition of Black Trade Unionists
    The Coalition of Black Trade Unionists (CBTU) proudly represents 
the interests of over 2.5 million black men and women in the labor 
movement. With one in every five black workers in a union, the labor 
movement is the single largest organization of African Americans in the 
nation. Since its founding in 1972, the CBTU has fought for economic, 
political and social justice for every American and used its powerful 
voice to demand fairness, equal pay, and a voice on the job for all 
workers. It is in this spirit that CBTU advocates for comprehensive 
immigration reform.
    CBTU strongly supports the Labor framework for comprehensive 
immigration reform which calls for: an independent commission to assess 
and manage future flows, based on labor market shortages that are 
determined on the basis of actual need; a secure and effective worker 
authorization mechanism; rational operational control of the border; 
adjustment of status for the current undocumented population; and 
improvement, not expansion, of temporary worker programs, limited to 
temporary or seasonal, not permanent, jobs.\1\
---------------------------------------------------------------------------
    \1\ ``The Labor Movement's Framework for Comprehensive Immigration 
Reform,'' AFL-CIO and Change to Win, April 2009, available at http://
www.aflcio.org/issues/civilrights/immigration/upload/
immigrationreform041409.pdf
---------------------------------------------------------------------------
      immigration reform should not be portrayed as a wedge issue
    While we appreciate the subcommittee's focus on minority workers, 
we are deeply concerned the hearing will be used as a forum to blame 
immigrants for ``stealing jobs'' and attempt to divide African-American 
workers from Latino workers and newly-arrived immigrants from earlier-
arriving immigrants. We sincerely hope members of the subcommittee and 
witnesses in today's hearing will rise above such simplistic views and 
refrain from divisive rhetoric.
    Immigration reform is not an ``us versus them'' issue; it is an 
issue that impacts all of us. For far too long, unscrupulous employers 
have manipulated our broken immigration system to exploit undocumented 
workers, deny workplace protections, depress wages and stifle 
collective bargaining rights. This abuse has had a detrimental impact 
on all workers and must be stopped.
          improving workers rights will help minority workers
    CBTU encourages the subcommittee to look at improving labor, health 
and safety laws as a way to ``make immigration work for minorities.'' 
Prioritizing workers' rights and workplace protections will ensure that 
our immigration system does not depress wages and working conditions 
for American workers. Promoting the freedom to form union and 
increasing access to collective bargaining will also benefit minority 
workers.
    By bargaining collectively, union members are often able to 
negotiate higher wages and better benefits. Union members earn almost 
28 percent more than nonunion members. The union wage benefit is 
greatest for people of color and women. Latino union workers earn 
almost 51 percent more than their nonunion counterparts. Union women 
earn almost 34 percent more than nonunion women. For African Americans, 
the union advantage is 31 percent. For Asian American workers the union 
advantage is close to 1 percent.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Labor, Bureau of Labor Statistics, ``Union 
Members in 2010'', January 2011, table 2.
---------------------------------------------------------------------------
                               conclusion
    CBTU reaffirms its commitment to comprehensive immigration reform, 
as outlined in the Labor framework. We encourage Congress to take a 
comprehensive approach to immigration reform and prioritize workers' 
rights. Ensuring that workers come out of the shadows and participate 
in the above-ground economy will raise labor standards for all workers.
                               __________

    Mr. Conyers. Now the NAACP has been working on this issue 
for decades. The Congressional Black Caucus has been working on 
this issue for decades. We welcome our Judiciary Committee 
putting an oar in on this as well.
    And so, this is a very important hearing, and I know our 
witnesses are going to be careful about their remarks because 
they will be scrutinized long after this hearing has ended.
    Now the one thing that I want to clear up, if I can, with 
the Chairman of the Judiciary Committee, Lamar Smith, is that 
the numbers of people being arrested at the borders and the 
enforcement of our borders is, as I interpret what he said, 
more lax than ever. Or that the numbers are not proving what--
they are proving that there needs to be more work on it.
    But that, Chairman Smith, is only if you take out the 
number of helicopter raids and big, mass busts, when they go 
into one plant and arrest everybody in sight. That is true that 
that sort of conduct is not going on. But we are enforcing our 
border security laws more effectively, from my point of view, 
than ever before.
    Last year, we deported a record number of immigrants. We 
have now more Border Patrol officers at our U.S.-Mexican border 
than ever before. And border crossings are at the lowest level 
since the year 1972. And there are all sorts of statistics that 
will be brought forward.
    But let us agree that we will work toward the accuracy of 
what is going on at the border because I think there is 
agreement that that is the key to cutting down and reducing to 
the maximum illegal entry into this country through our U.S.-
Mexican border. And so, I am very much committed to this 
hearing.
    But there is a suggestion that somehow if we cut off 
immigrants, we will then be able to hire, particularly for farm 
workers, my Subcommittee Chair mentioned, we will be able to 
hire African Americans. Well, I have got a half dozen or more 
States that we can pay a visit to, and we might want to take a 
little trip out to these areas and find out from the farmers 
themselves what they are saying.
    If you really want to scare our agriculture industry in a 
new and different way, tell them that you are going to 
eliminate the immigrants that work in these fields at stoop 
labor at cheap wages, under deplorable conditions, I think you 
will find that their anticipation of being replaced by 
unemployed African Americans at this field will not be zero. It 
might be 1 or 2 percent. And so, I hope that this discussion 
comes out in what we will be doing here today.
    The way we are going to deal with creating jobs is to 
stimulate the economy and create some jobs. I have heard it 
said from my friends here in the Judiciary Committee that we 
should collect up every illegal immigrant and send them out of 
this country, and I will probably hear that again today, which 
is a point of view that is permissible under democratic 
discussion of how we should govern.
    But I hope that we will get past that. That is not what 
this country is about, and an immigration policy, which this 
Committee has jurisdiction over, we have got people now born in 
this country whose parents were immigrants and who may not have 
been here legally and who are now citizens. And that is another 
big challenge that awaits, Chairman Gallegly, this 
distinguished Subcommittee's work.
    And so, I thank you very much for giving me the opportunity 
to join in this discussion in the hearing today.
    Mr. Gallegly. Thank the gentleman for his opening 
statement.
    We are fortunate to have a very distinguished panel of 
witnesses with us today. Each of the witnesses' written 
statement will be entered into the record in its entirety, and 
I would ask that each witness summarize his or her testimony in 
5 minutes, if possible, to help stay within the time 
constraints that we have here today.
    We have the lights that will help as an indication of the 
amount of time that has been taken, and I would ask that 
everybody be sensitive to that.
    Our first witness is Dr. Carol Swain. Dr. Swain is a 
professor at Vanderbilt University Law School and was a tenured 
associate professor of politics and public policy at Princeton 
University's Woodrow Wilson School of Public and International 
Affairs. Her work on representation and race relations has 
earned her national and international accolades.
    Dr. Swain, welcome?

  TESTIMONY OF CAROL M. SWAIN, Ph.D., PROFESSOR OF POLITICAL 
             SCIENCE AND LAW, VANDERBILT UNIVERSITY

    Ms. Swain. Good morning.
    President Obama's failure to enforce Federal immigration 
laws raises the question of whether we are a nation of laws or 
a nation without the courage of its convictions. This failure 
to enforce many of the congressionally enacted laws of our 
Nation places our citizens at risk, and it damages our national 
sovereignty and standing in the world.
    Under our constitutional system, the President and Members 
of Congress and other officers take an oath of office where 
they swear to defend the U.S. against all foreign and domestic 
threats. The failure to enforce immigration laws means that the 
American public is unprotected from a massive influx of 
millions of foreign-born persons who have entered this country 
without authorization and have taken jobs and opportunities 
from law-abiding American citizens.
    It does not matter that some of these unauthorized 
foreigners are otherwise good people. Maybe most of them are 
good people. What matters is their choice to enter this country 
unlawfully, in open violation of our laws.
    By not defending our laws, the President risks the kinds of 
lawlessness that we find rampant in other parts of the world. 
It dishonors us, and it dishonors our Nation when the chief 
executive sends the signal to the world that laws no longer 
matter.
    The American people have spoken. Poll after poll has shown 
that the American people would like immigration laws enforced 
and current levels of immigration reduced. All Americans are 
suffering from unemployment, job displacement, and stagnant or 
declining wages. But some Americans suffer more than other 
Americans.
    The unemployment data show that native-born Blacks and 
Hispanics with a high school education or less have been harmed 
the most by the oversupply of cheap, low-skilled foreign labor. 
Unfortunately, a lack of opportunities in the legal job market 
has pushed more and more minorities into illegal activities.
    Harvard economist George Borjas conducted a study of Black 
male employment and found a precipitous decline in Black 
employment between 1960 and 2009 that was accompanied by a 
sharp increase in their incarceration rate. This decline in 
Black employment and the rise in incarceration rates cannot be 
explained by the prevalence of crack cocaine or other factors.
    Borjas concluded that a 10 percent immigration-induced 
increase in the supply of a particular skill group reduced the 
Black employment wage by 3 percent, lowered the employment rate 
of Black men by about 5 percentage points, and increased the 
incarceration rate of Blacks by a percentage point.
    Congress can address these issues. Lawlessness has no place 
in America. Congress should take immediate steps to regain the 
confidence of the American people in the rule of law. Congress 
should use its oversight authority to ensure that Homeland 
Security is enforcing existing Federal laws and not using our 
Federal dollars to sue States.
    Congress should increase workplace verification and 
enforcement, a restoration of the Social Security no-match 
regulation, a return to workplace raids, detention of 
unauthorized foreigners who pose a flight risk, and stiff 
penalties for employers who repeatedly hire illegal aliens.
    Right now, there is a bill before Congress that would make 
E-Verify permanent and mandatory for all businesses. H.R. 800 
would require employers to check the eligibility status of new 
and existing employees, and it would establish penalties for 
noncompliance. H.R. 800 needs to be passed quickly and signed 
into law.
    Congress also needs to strengthen the hands of local law 
enforcement officials and give them the authority to assist 
with enforcement of immigration laws. Sanctuary cities, towns, 
and States should lose their Federal funding.
    These difficult measures are necessary if we are to protect 
the health and well-being of the American public while 
maintaining our national sovereignty and the rule of law.
    Thank you.
    [The prepared statement of Ms. Swain follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Gallegly. Thank you very much, Dr. Swain.
    Our next witness is Dr. Frank Morris. Dr. Morris is retired 
from the University of Texas at Dallas and was previously the 
dean of graduate studies and research at Morgan State 
University. He is a former executive director of the 
Congressional Black Caucus and is a founding board member of 
Progressives for Immigration Reform.
    Welcome, Dr. Rodgers--Morris. I am sorry.

           TESTIMONY OF FRANK L. MORRIS, SR., Ph.D., 
              PROGRESSIVES FOR IMMIGRATION REFORM

    Mr. Morris. Thank you so much, Mr. Chairman and Members of 
the Subcommittee.
    I believe that I will point out why this particular 
relation of jobs and immigrants and low-wage workers is a 
particularly important subject for the Judiciary Committee.
    Now, basically, to make sure I get my main point in, which 
I think I already heard well, that current immigration and 
labor laws, the necessity to enforce them, along with E-Verify, 
must be vigorously enforced, at a time when all American 
workers, and especially African-American workers, are so 
economically vulnerable.
    Now, in the immigration debate, one of the things that we 
consistently see through the press and others, the focus that 
somehow it is the immigrants, and I hear it here today, that 
are the real victims. What we do not really point out is that 
in many ways in our labor market, the immigrants are the 
privileged workers, and we don't talk about the real victims 
being the low-wage African-American workers, especially subject 
to substitution pressures, which, Congressman Lofgren didn't 
talk about, but I can elaborate in the questioning area.
    The privilege basically is the availability of jobs and a 
preference for jobs. Less than one-quarter of the jobs that 
immigrants hold are in agriculture. To say that Americans won't 
do or can't do or low-wage workers or low-wage Black workers 
are not available for jobs in light manufacturing or janitorial 
services or food preparation or cleaning or health services is 
just simply not true. These are supposedly the fields--jobs 
which Americans won't do, and the majority of Americans in 
these fields do them.
    Now, further evidence of this, once again, comes from 
Andrew Sum at Northeastern. He points out that at the time 
where we have had this great economic loss of jobs, the great 
recession of 2008 to '10, while we have had nearly double-digit 
unemployment, over a million new foreign workers have found 
jobs. Now this is why we have lost 6.2 million jobs for the 
economy as a whole.
    Andrew Sum, the really prominent labor economist at 
Northeastern, has been quoted as saying, ``Employers have 
chosen to use new immigrants over native-born workers and 
continue to displace large numbers of blue-collar workers and 
young adults without college degrees. One of the advantages of 
hiring, particularly young, undocumented immigrants, is the 
fact that employers do not have to pay health benefits or 
payroll taxes.''
    One of the things I want to point out--I need to move 
quickly here--is that the differences in the way laws are 
administrated. We have African Americans not benefiting from 
stringent enforcement of laws that protect workers. Whereas, we 
have had in our history, and we have to the present, the 
intensive administration of drug laws that have a 
disproportionate impact on African Americans.
    And I point out the statistics in my written presentation 
that are really, really extensive. This double standard, this 
double standard of loss, and I point out that now we cannot 
continue this.
    You know, one of the other benefits that many in the 
immigration debate has had is the comparison that somehow 
immigrants or undocumented immigrants are in an analogous 
position to African Americans in the civil rights struggle. I 
point out clearly at least four reasons why that that is simply 
in error.
    The analogy implies that current employer preferences to 
pay workers is the same as African Americans. When we African 
Americans were the employed workers, it was during slavery. It 
was during times of chain gangs, and it was during times of 
agricultural sharecropping. The slogan ``last hired and first 
fired'' still has meaning.
    And this is the critical effect, the substitution effect. 
The fact that the only times when African-American workers 
really have a shot, especially African-American workers who 
have criminal records, who have gone through the criminal 
justice system, is when there are times of full employment. And 
we are a long way from that.
    The statistics, I have got to really move very quickly to 
point out. I point out whole sections in my written statement 
of why deteriorating economic conditions require that we give a 
preference to American workers, not just even bring them up to 
the speed. But American workers clearly need the preference.
    And I point out at the end, because my time is short, that 
there are three market trends that really require that we once 
again focus on our American workers--the fact of more jobs that 
are subject to offshoring, the fact that reductions in State 
and local employment where African Americans are 
overrepresented, and last, but not least, the fact that many of 
our major corporations get their revenues and their employment 
from outside.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Morris follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                   __________

    Mr. Gallegly. Thank you very much, Dr. Morris.
    Our next witness is Mr. George Rodriguez. Mr. Rodriguez is 
president of the San Antonio Tea Party, is a former Reagan 
administration official who worked at both the Department of 
Housing and Urban Development and the Department of Justice.
    Welcome, Mr. Rodriguez.

           TESTIMONY OF GEORGE RODRIGUEZ, PRESIDENT, 
                     SAN ANTONIO TEA PARTY

    Mr. Rodriguez. Thank you very much. Is it on?
    I am humbled and honored to be the first Hispanic to be 
elected as a Tea Party president in this Nation. My testimony 
today is more regarding the personal impact on my family that I 
have seen regarding illegal immigration and illegal workers in 
the United States.
    I was born in Laredo, Texas, a border city, where my family 
resided for over three generations. Illegal labor was a daily 
problem for my family and other Mexican Americans in those 
days.
    My father, Eduardo Rodriguez, was a printer since the age 
of 9. He taught himself how to read and write proper English by 
working a printing press. During the Depression, my father 
worked very hard to keep his job and a decent wage that would 
support his family.
    The problem was not only the economic depression that our 
country was going through, it was also the competition from 
illegal Mexican workers who crossed into Laredo, Texas, every 
day. They would cross in to work during the day and then go 
back to Nuevo Laredo in the evenings to live.
    A low wage in the United States was a great wage in Mexico. 
The practice of working illegally in the United States and 
living in Mexico was common and continues to be very common in 
the border cities. But it was very, very much resented by 
Mexican Americans.
    In 1938, my father began organizing a printers union not so 
much to address the issues of labor, of wage and labor 
conditions, but to develop a closed shop as a way, as an only 
way to stop the competition from illegal aliens and the 
undercutting of wages by Mexican aliens.
    For example, an illegal Mexican worker would work for half 
the wages a Mexican American would, but still live well in 
Mexico. Another issue was how easily a Mexican American could 
be replaced if he complained, if he complained to his boss 
while illegal workers were plentiful.
    After 9 difficult years, my father was successful in 
establishing a printers union, which kept illegal aliens from 
competing with American citizens for jobs. My father passed 
away in 1988, but he was very happy when he heard of the 1986 
Immigration Reform Act, that it contained employer sanctions. 
Unfortunately, those employer sanctions are rarely, are rarely 
enforced.
    My father's story is not unique, but rather typical of the 
experience most Mexican Americans have had in border towns. 
Even today, Mexican Americans--not just in border towns, but 
everywhere--will tell you that they do not want illegal aliens 
competing for their jobs in any form or fashion. Most Mexican 
Americans feel that we must do something to stop aliens from 
entering the country illegally, illegally, and taking jobs from 
Americans in any form or fashion.
    Let me relate one more story. My mother passed away in 
1987. And a few days after her death, an acquaintance of the 
family's asked to borrow--actually, to purchase--my mother's 
Social Security number so she could get somebody to work. Yet 
another example of how this system continues to need some 
fixing.
    My testimony today is not only that we have problems in 
America today, where Americans are adversely impacted by 
illegal aliens in competing for jobs. In this time of economic 
stress, we really, really need to do some more enforcement. One 
of the things that we see that is very, very important is--or 
that sometimes is not understood is the disdain that Hispanic 
Americans have for illegal aliens who are competing for their 
jobs.
    Now, Mr. Conyers, with all due respect, one thing that you 
said a few moments ago as far as abhorrence and the competition 
between people, let me tell you what is really abhorrent. That 
Hispanic Americans are classified in the same breath with 
illegal aliens.
    We are American citizens. We are born in this country, and 
we honor this country. The laws must be obeyed. And 
unfortunately, whenever somebody thinks of illegal aliens, they 
think of us, which I find patently unfair and discriminatory.
    Thank you very much.
    [The prepared statement of Mr. Rodriguez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Gallegly. Thank you very much, Mr. Rodriguez.
    The fourth witness today is Mr. Wade Henderson. Mr. 
Henderson is the president and CEO of the Leadership Conference 
on Civil and Human Rights. Prior to this, he was the Washington 
bureau director of the NAACP. Mr. Henderson is a graduate of 
Harvard University and Rutgers University School of Law.
    Welcome, Mr. Henderson.

TESTIMONY OF WADE HENDERSON, PRESIDENT AND CEO, THE LEADERSHIP 
              CONFERENCE ON CIVIL AND HUMAN RIGHTS

    Mr. Henderson. Chairman Gallegly, Ranking Member Lofgren, 
and Members of the Subcommittee, thank you for having me here 
today.
    The Leadership Conference is the Nation's leading civil and 
human rights coalition, with over 200 national organizations 
working to build an America that is as good as its ideals.
    The issue of immigration reform, including the question of 
how immigrants interact with various communities of native-born 
Americans, has long been one of tremendous importance to the 
Leadership Conference. And I am honored to share some of the 
thoughts of our coalition today.
    For the record, I should also note that I am honored to be 
the Joseph L. Rauh Jr. Professor of Public Interest Law at the 
David A. Clarke School of Law, University of the District of 
Columbia. And for the record, I did not do my undergraduate 
work at Harvard. I attended Howard University. I am proud to 
note that as well.
    I would like to begin by noting what I hope are a few 
general points of agreement. First, I believe that everyone in 
this room can agree that our Nation's immigration system is 
badly broken. It fails to keep up with economic realities. It 
fails to provide an orderly way to keep track of who is here.
    It inhumanely separates families and keeps them apart. It 
penalizes children for the actions of their parents. And it is 
so unfair and so burdensome that it fails to give people enough 
incentives to play by the rules. America's immigration system 
clearly needs sweeping changes, and it needs them soon.
    Second, elections have consequence. And while I recognize 
that the political landscape has changed, the dire need for a 
comprehensive overhaul of our Nation's immigration policy has 
not changed.
    I would echo what President Obama said during the State of 
the Union about the need for Congress to continue working 
toward a solution to this issue to humanely deal with people 
who are already here, to meet the needs of employers without 
undercutting workers, and to ensure that people are using 
legal, secure means of coming here and that Congress must do so 
in a bipartisan way.
    Now, turning more directly to the subject of today's 
hearing on making our immigration policies work better for 
minority groups, I would note that the real impact of 
immigration continues to fuel debate even among the most 
knowledgeable policy advocates.
    As a lawyer and as a civil rights advocate who has spent 
decades elevating fact to combat false and harmful stereotype, 
I would say that the research to date paints a far more 
complicated picture than the rhetoric we often hear about 
immigrants ``taking jobs from African Americans.''
    For example, let us begin with the very troubling reality 
that African-American unemployment rates have always been high. 
Over the last 50 years, the unemployment rate for African 
Americans has consistently been almost twice as high as the 
unemployment rate for White Americans, even before the foreign-
born population began to increase.
    It is also important to remember that African-American 
unemployment has a wide range of causes that are difficult for 
economists or for anyone else to pinpoint. These include not 
only employment discrimination, but also the problem of 
structural inequality that results from disparities in 
education, criminal justice policies, the availability of 
healthcare and housing, as well as the globalization of the 
economy and the movement of many types of jobs overseas.
    For these and for other reasons, economists are still 
debating the real impact of immigration on the overall economy, 
as well as its impact on particular groups within the economy. 
That said, the Leadership Conference takes very seriously the 
underlying concerns which motivated this hearing today.
    We strongly believe that public and private initiatives to 
address the persistent high rates of unemployment for African 
Americans should be one of our Nation's highest priorities. 
When it comes to the impact of undocumented immigration on the 
job prospects of low-skilled African Americans, there is 
admittedly some anecdotal evidence of job displacement, even as 
the statistical evidence remains unclear.
    However, the premise that widespread job displacement can 
be traced directly to the presence of undocumented immigrants 
in the workforce is simply unfounded. Moreover, some advocates 
for more restrictive immigration policies have chosen to 
overstate the problem as a way of garnering greater public 
support for their positions, even though many economists 
believe that comprehensive immigration reform is the best way 
to end the massive exploitation of the undocumented and the 
incidental displacement it may cause.
    Finally, our own research has found that despite these 
concerns, most African Americans still support comprehensive 
immigration reform, as I explain in my written statement.
    Now, in an effort to address both the misperceived and 
legitimate issues of job displacement in a constructive way, 
the Leadership Conference organized a summit of leaders from 
the African-American, Latino, and Asian-American communities in 
2007 with an eye toward the upcoming Senate immigration debate 
of that year. I won't continue on this track other than to say, 
sir, that in the interest of time, there are recommendations 
included in my written testimony which would elevate a solution 
to the problem we have discussed.
    Now, one last point. I commend those who share our interest 
in ameliorating the persistent problem of high unemployment in 
the African-American community. However, the singular focus of 
today's hearing may do more harm than good by contributing to a 
distorted view of a significant issue that defies simple 
explanation.
    At most, immigration is one small factor in a very 
complicated problem of African-American unemployment, and yet 
it remains an issue ripe for mischaracterization and political 
manipulation. And while I do not question the motives of anyone 
associated with today's hearing, I do know that African 
Americans tend to take note of how consistently or 
inconsistently advocates for reduced immigration show their 
concern when it comes to dealing with other factors and the 
interests of the African-American community as a whole.
    I would cite two examples, but in the interest of time, I 
will only emphasize one of them. The two examples would have 
been the severe budgetary cuts that were adopted earlier this 
month by the House Republican leadership that will have, 
unfortunately, a significant and disproportionate impact on 
African Americans as a whole.
    And then, lastly, I would also point to what appears to be 
a coordinated campaign of State and Federal bills aimed at 
rewriting the 14th Amendment of the Constitution, one of the 
bedrock foundations of civil rights in this country, in a 
misguided effort at controlling undocumented immigration. As 
some of you may know, attacks on the sanctity of American 
citizenship have particular resonance for African Americans.
    These concerns were exacerbated at one national event where 
a State senator from Florida--I am sorry, from South Carolina 
announced his support for the initiative by celebrating the 
150th anniversary of the Civil War and South Carolina's role in 
starting this conflict through the Confederate attack on Fort 
Sumter. This was hardly a rallying cry in support of the more 
perfect union we all purport to seek.
    Now I don't claim to know what is in any person's heart, 
but it is fairly clear to most African Americans that many of 
those who are quick to cast blame on the immigrant community 
for job displacement or other social ills, do so for reasons 
other than their concerns for the economic or social well-being 
of African Americans.
    Thank you.
    [The prepared statement of Mr. Henderson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                   __________
    Mr. Gallegly. Thank you, Mr. Henderson.
    And first of all, I want to apologize to you for 
misrepresenting your credentials and Harvard. It was not my 
intent to slander you, sir.
    Mr. Henderson. No, no. And sir, thank you. And I don't take 
any offense, but I am quite proud of my undergraduate degree, 
as well as my law school degree and other advanced degrees that 
I hold. So thank you, sir.
    Mr. Gallegly. Thank you.
    Dr. Swain, you had entered in the written statement that it 
is members of the working class and not highly educated 
Americans who are most upset about immigration labor. Could you 
maybe expand just a little bit on that?
    Ms. Swain. Well, first of all, the American public, for the 
last 20 years, poll after poll has shown that the American 
public would like to see immigration enforcement. The 
economists agree--to answer your question directly, the 
economists agree that a small sector of the population is 
negatively impacted by high levels of illegal immigration.
    That small sector includes low-skilled, poorly educated 
Blacks and legal Hispanics. And so, it is not that they are 
upset. They are the ones who are being affected. And I believe 
all economists would agree that this is the sector, the ones 
that are high school educated and less.
    Mr. Gallegly. Dr. Swain, further, my colleague and Ranking 
Member of the full Committee, Mr. Conyers, said that the NAACP 
has been working on this issue for decades and that those who 
want enforcement are pitting Blacks against Hispanics, which is 
divisive. Would you like to respond to that?
    Ms. Swain. In a book that I edited in 2007 that was 
published by Cambridge University Press, entitled ``Debating 
Immigration,'' I have a chapter on the Congressional Black 
Caucus and its stances toward immigration. And one of the 
things that I am dismayed by is the fact that the Black 
leadership, whether we are talking about the NAACP or the 
Congressional Black Caucus, has done a very poor job of 
representing the interests of Black Americans as well as legal 
Hispanics in their districts.
    Mr. Gallegly. Dr. Morris, would you like to try to respond 
to that same question?
    Mr. Morris. Yes, one of the studies that really talks about 
the differences between elite and sort of grassroots attitudes 
is done by the Chicago Council on Foreign Relations almost 
periodically. And they show that across the board, immigration 
is one of the greatest areas where there is a difference 
between elite opinion, and I would certainly include elite 
Members of Congress, and those who are at the grassroots.
    Folks, when you--African Americans, when we are talking not 
in the halls of Congress, really do feel, they see certain 
things. They see the lack of African-American workers in 
construction sites, whether it is in Dallas, whether it is in 
Washington, D.C., whether it is from all around the country. 
They question why that we don't see more Black workers in 
certain other areas.
    They realize that the contention that jobs in light 
manufacturing, from poultry plants to meat plants, which are 
heavily influenced by migrants, are allegedly jobs that 
Americans won't do. Well, African Americans, we certainly won't 
do them if we don't get the job.
    And I think this is as much as anything, that there are--in 
a book that Waldinger wrote a number of years ago, there are 
networks, there are employment networks that are vital in 
recruitment. And many African Americans are out of those 
recruitments. Those networks recruit to contractors and others 
for undocumenteds. It is a pipeline, and our workers are out of 
this. They are out of this.
    And especially our vulnerable workers, who have, because we 
are in the Judiciary Committee, this interaction with the 
criminal justice system. And I think an unfortunate 
interaction. There is Michelle Alexander, in both her book and 
in her article at American Prospect, shows a 2002 study from 
Chicago that shows that 80 percent of young African-American 
males have had some interactions with the criminal justice 
system, arrests or other kinds of things, which really serves 
as a means of not letting them work.
    And they don't have the choice. This is the other thing. 
African Americans do not have the choice to go home, to go home 
or to go back to a place where you could work. A Pew Hispanic 
study a couple of years ago pointed out that many of our 
immigrants--especially Mexican, illegal and legal--came to the 
United States not because they didn't have jobs in Mexico, but 
because jobs in the United States pay more.
    African Americans, as I point out in my--do not have that 
choice of either going back or having someone else protect 
their human rights, stand up for their human rights in this 
country.
    Mr. Gallegly. Thank you, Dr. Morris.
    I would just like to ask Mr. Rodriguez a very quick 
question. What kind of message is the Administration sending to 
the Hispanic-American community when it refuses to detain and 
prosecute illegal immigrants found in the workplace?
    Mr. Rodriguez. It is sending a very poor message. Let me 
tell you that I represent--just in San Antonio, our Tea Party 
represents about 6,000 voters. Of those 6,000 voters, about a 
third, maybe a little larger number than that, are Hispanic 
Americans.
    Any time that I have written an article in the newspaper, 
and I have written several, the response from Hispanic 
Americans is tremendous all the time, saying it is about time 
somebody says something. And it is about time somebody stopped 
classifying us as somehow part of an entire illegal community. 
We are American citizens. We want the laws obeyed.
    The laws are there for a reason. And when a law is broken, 
then there should be a penalty. And unfortunately, that is not 
the message that is going on right now. The message that we 
hear right now is, well, you know, we are trying to get votes. 
And so, therefore, we are trying to classify everybody the 
same.
    Mr. Gallegly. Thank you, Mr. Rodriguez.
    The Ranking Member has asked to defer to the Ranking Member 
of the full Committee, my good friend Mr. Conyers.
    Mr. Conyers?
    Mr. Conyers. Thank you, Chairman Gallegly.
    The Chairman, Mr. Smith, and I have to depart to the budget 
portion of a Committee to get our resources for the 112th 
Congress. So I thank Zoe Lofgren for letting me go first.
    This is more puzzling than it is helping us get to the 
subject, but, Dr. Swain, you are sitting next to Dr. Morris, 
who served with distinction on the Congressional Black Caucus 
Foundation. And I was hoping that he would help defend the poor 
record of the Congressional Black Caucus that you have 
reported. This is the second time you have done that in the 
Committee.
    Dr. Morris, can you defend me and the members of the CBC 
here?
    Mr. Morris. Congressman Conyers, certainly. In terms of 
support of working-class Americans, absolutely right, and the 
Black working class. However, on the immigration issue, I think 
that there has been a belief of giving a priority to maybe a 
larger political coalition other than focusing on specifically 
the direct, narrow concerns of African-American workers.
    One of the----
    Mr. Conyers. This is sort of damning with faint praise, Dr. 
Morris. Could you be a little more emphatic than that?
    Mr. Morris. Well, I think that certainly----
    Mr. Conyers. I mean, there were seven members when I got 
here. There are 42 now, 43. And Dr. Swain never misses an 
opportunity to denigrate the CBC, which is frequently regarded 
to be the conscience of the Congress.
    And of course, I don't know what my constituents are going 
to think about your comment because I have been reelected 23 
times in a row and am now the second most-senior Member of the 
Congress. I hope you won't hold that against the Congress or my 
constituents.
    But----
    Ms. Swain. May I speak, sir?
    Mr. Conyers. Not yet. But let me get to Mr. Tea Party from 
Texas, George Rodriguez.
    And I was impressed that on your statement that you 
submitted, you put ``Mr. Tea Party,'' just in case anybody 
thought you were just an ordinary rank-and-file Republican.
    Now, in Texas, you failed to give support to my Chairman 
when he ran just a few months ago. You can speak. I don't want 
you to shake your head. I want this to be in the record.
    Mr. Rodriguez. Well----
    Mr. Conyers. Right?
    Mr. Rodriguez. Can I speak now?
    Mr. Conyers. Right?
    Mr. Rodriguez. Yes, I did. I did not support Mr.----
    Mr. Conyers. So we have got a difficult situation here, Mr. 
Chairman. No, he said yes. Yes, I am correct. You did not 
support the Chairman?
    Mr. Rodriguez. I did not support the Chairman----
    Mr. Conyers. Right.
    Mr. Rodriguez.--Mr. Rodriguez. Is that what you are talking 
about?
    Mr. Conyers. No, Mr. Smith. Lamar Smith.
    Mr. Rodriguez. Yes, we did. We supported Mr. Smith.
    Mr. Conyers. Oh, you did?
    Mr. Rodriguez. Yes.
    Mr. Conyers. Oh, well, I apologize. I thought I was going 
to have--hear criticism from the Black Caucus and criticism 
from you from Lamar Smith, but you fail me. I thought the Tea 
Party was, you know, doing their own thing here.
    We have got Members here, newly elected among the 87, that 
they are demanding things far beyond what the regular, 
ordinary, routine Republicans are doing.
    Mr. Rodriguez. Well, Mr. Conyers, perhaps you don't 
understand the Tea Party itself.
    Mr. Conyers. Perhaps.
    Mr. Rodriguez. Let me explain to you, just to be--the Tea 
Party is a conservative movement. It is not a political 
movement that supports one party or the other. We are 
conservatives, okay?
    Mr. Conyers. Do you know of any Democrats in the Tea Party?
    Mr. Rodriguez. Well, I am not sure I know any conservative 
Democrats.
    Mr. Conyers. Well, the Blue Dogs will be interested to hear 
about that.
    Mr. Rodriguez. Well, yes, and we have talked to some of 
them. But I am not sure if they are conservative enough for us.
    Mr. Conyers. Oh. Well, I am glad to know that our Chairman 
cut the mustard to fulfill your----
    Mr. Rodriguez. He does have the mustard. [Laughter.]
    Mr. Conyers. Well, let me just close with a question about 
the subject. How many here of the four of you believe that we 
ought to really just remove all the nonlegal immigrants in the 
country? Just take them right out of the fields, wherever they 
work. Or if they are not working, period.
    Mr. Morris. Can I ask, Mr. Chairman, what do you mean 
``remove?'' You mean forcible?
    Mr. Conyers. Remove, forcible removal out of the United 
States.
    Mr. Morris. I don't think it needs to be forcible.
    Mr. Conyers. Well, let us----
    Mr. Morris. That is the difference. I don't think it 
needs----
    Mr. Conyers. But you are for it.
    Mr. Rodriguez. I think you are trying to be dramatic on 
that aspect.
    Mr. Morris. I think that those who have the choice and want 
to go back, should be able to go back.
    Mr. Conyers. No, no, no. I am not talking about options. I 
am talking about you don't believe that they should be all 
removed?
    Ms. Swain. Are you referring to me?
    Mr. Conyers. And I dropped the dramatic term ``forcible.'' 
So what do you think about it? Answer the question.
    Mr. Morris. What should happen is that if our laws were 
enforced----
    Mr. Conyers. Yes.
    Mr. Morris [continuing]. And especially the workforce laws, 
many of those would go on their own because they do have the 
choices, unlike our own workers.
    Mr. Conyers. You mean they have got jobs back home waiting 
for them?
    Mr. Morris. And options and choices, yes.
    Mr. Conyers. That is the most preposterous suggestion that 
I have heard here all morning. That they are all fleeing up 
here because they don't like the job, they can get better jobs.
    Okay. Let me try something else.
    Mr. Gallegly. Mr. Conyers, I have great respect for you, 
but I would just ask that we kind of wrap this up.
    Mr. Conyers. One question. Yes, sir. What about the 
question of if we removed the immigrants that work in the 
fields at stoop labor, how many of you think that they could be 
replaced by African-American unemployed workers?
    [Show of hands.]
    Mr. Conyers. One, two, three.
    Ms. Swain. No, I would like to be able to elaborate, and I 
would also like to be able to say to you, Mr. Conyers, that the 
Congressional Black Caucus, over the decades, they have done a 
great job. But it seems like somewhere along the way, they just 
lost their way.
    And I think that we can trace the shift in the 
Congressional Black Caucus's position on immigration 
enforcement and that they seem to be more responsive now to 
interest groups rather than to the people that vote for them. 
And Black people vote for you and for the other Black members 
because they are very loyal. They love you. We love you. I love 
you.
    But I wish the Congressional Black Caucus would do a better 
job of really representing the downtrodden, their constituents 
who are of different races and not one particular race.
    Mr. Gallegly. The gentleman from Texas, Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman.
    Let me address my first question to Dr. Swain and to Mr. 
Rodriguez because you both, in your written testimony, have 
pointed out the disconnect between working Black Americans and 
working Mexican Americans and the leaders of various African-
American or Hispanic organizations. And I think you are right. 
There is a huge disconnect between the typical Black worker or 
Hispanic worker and some of the leaders of the various 
organizations.
    Why do you think that is? Why is there such a great 
disconnect?
    Ms. Swain. I believe it is because the elected Members of 
Congress, some of both parties, are more responsive to interest 
groups than they are to people who are not able to give large 
campaign contributions or are not organized. And so, that is 
one of the reasons why I am here today, I believe the voices of 
ordinary people need to be heard, those that cannot afford to 
hire lobbyists.
    Mr. Smith. Okay. Mr. Rodriguez?
    Mr. Rodriguez. I couldn't agree more with what Dr. Swain 
has said. I think what the problem is, and I think that this 
is, again, why the Tea Party has come to fruition and been 
organized is because we think that we feel that there is a 
disconnect between what the grassroots folks say and feel and 
see and do and what is happening in Washington, D.C., with 
leadership.
    We have endeavored to meet with our congressional 
representatives in the San Antonio area, and on two occasions, 
we have had two Members of Congress tell us, using one phrase 
over and over again, ``You don't understand how we work in 
Washington.'' Well, the problem is that we do understand how 
you work in Washington. You know, that is the headache is that 
you are not listening to us.
    I mean, we see what is going on, on C-SPAN. We hear the 
sound bites. And then, when we try to talk to people, one-on-
one, to explain what is going on, what we see, they don't hear 
us. They just don't seem to pay attention. So I think that is 
the disconnect.
    And the thing that I am telling you right now or that I 
want to emphasize to this Committee is that they keep talking 
about the immigrant community being under attack. It is not the 
immigrant community that is under attack. It is the illegal 
immigrant community that we have a problem with, illegal. I am 
not sure what the word ``illegal,'' what people don't 
understand about that word.
    The second thing is that we, as Hispanics, are tired of 
being lumped together with illegal immigrants, as somehow what 
happens to the illegal immigrant community is going to offend 
the Hispanic community. That is not true. We live as American 
citizens, and we want the laws enforced.
    Mr. Smith. Okay. Thank you, Mr. Rodriguez.
    Dr. Morris, I would like to go to a different question, 
unless you want to address this question as well?
    Mr. Morris. I just wanted to say that with the current 
economic situation, it isn't just the matter of illegal 
immigrants, but the level of legal and illegal immigration at 
the time of the jobs becoming a premium is of great--should be 
of great concern.
    Mr. Smith. Dr. Morris, my question to you is to emphasize 
the 17 percent of African-American men nationwide who are not 
employed and to ask you why you think immigration policy may 
have caused that high unemployment figure.
    But let me actually quote from Mr. Henderson's written 
statement that his own poll found that 51 percent of African-
American respondents believe that immigrants take jobs from 
Americans and that 59 percent of African-American respondents 
believe that immigrants cause lower wages for African-American 
workers in particular.
    I happen to think that poll is accurate. But why do you 
think that immigration policy adversely affects the employment 
of Black Americans?
    Mr. Morris. Basically, Mr. Chairman--Mr. Smith and the 
Committee, because labor is not exempt from the law of supply 
and demand. Any time you increase the supply from any source, 
you have got two effects. You have got a substitution effect, 
and you have got a wage depression effect.
    The focus usually of any Congress is on the wage depressant 
effect, but my concern, and I think Dr. Swain, too, is the 
substitution effect. The fact that you have employees, 
employees who are preferred sometimes because they are more 
vulnerable, to other employees who are American citizens, who 
cannot get jobs because they are not part of networks, because 
increasingly there are contractor networks, because sometimes 
of their interaction with the criminal justice system, because 
of differential enforcement of laws are at a disadvantage.
    And even because the so-called merit criteria works both 
ways and to the advantage of African Americans. For many kinds 
of jobs, we are told that we have educational--we don't get 
jobs because our education isn't strong enough or we have 
sometimes even language deficits, you know, the ``Ebonics'' and 
so forth.
    And you find in the immigration area that you have workers 
with less education and non-English language skills that are 
able to get jobs that are preferred. So there are a whole 
number of reasons immigration makes the situation worse.
    I agree that it is not the only factor, and I also--I think 
we should all agree that many American workers, low-wage 
workers that are disadvantaged. But the fact is that it is 
worse, and it is going to get a lot worse, and African-American 
workers are much more vulnerable.
    Mr. Smith. Okay. Thank you, Dr. Morris.
    Mr. Chairman, as John Conyers, the Ranking Member, said a 
while ago, he and I have to appear before another Committee to 
justify the Judiciary Committee budget. So I regret that I am 
going to have to leave.
    But let me just say I don't think it does anybody any good, 
and it certainly does a disservice to Black Americans and 
Hispanic Americans, to ignore the consequences of our 
immigration policy, which clearly hurts those Black workers and 
Hispanic workers.
    I thank you, Mr. Chairman.
    Mr. Gallegly. Gentlelady, the Ranking Member from 
California, Ms. Lofgren?
    Ms. Lofgren. Thank you, Mr. Chairman.
    I just want to note that it is always a danger to assume 
that the American people agree with our opinions, and the 
polling shows that the American people overwhelmingly support 
comprehensive immigration reform.
    And rather than talk about the Lake Research poll, because 
Celinda Lake does a lot of Democratic polling, I will talk 
about the Fox News poll from 6 months ago, where they found 
that 68 percent of voters favored allowing undocumented 
immigrants who are willing to pay taxes and obey the law to 
stay in the United States, including 63 percent of Republican 
voters.
    Dr. Morris, I have a quick question for you.
    Mr. Morris. Certainly.
    Ms. Lofgren. I saw in your written testimony, you cite the 
Center for Labor Market Studies at Northeastern University.
    Mr. Morris. Yes. Yes, ma'am.
    Ms. Lofgren. A report that they did. Now we have called 
them and asked them for a copy of that study and that report, 
and they won't give it to us. Have you seen the report and 
analyzed the data? And can we get it from you?
    Mr. Morris. Yes, I will certainly do that.
    Ms. Lofgren. Thank you very much.
    Mr. Morris. They wouldn't give it to you?
    Ms. Lofgren. No. They will not release it.
    Mr. Morris. Oh, okay.
    Ms. Lofgren. Was what they said. But I would look forward 
to getting it from you, our secret, not-so-secret source. Thank 
you very much.
    I want to ask you, Mr. Henderson--and it is an honor to 
have you here as a witness with your distinguished career. You 
warn that the prospect of job displacement has been used by 
immigration restrictionists to really drive a wedge between 
African Americans and Latinos in the United States.
    I would like to know what the civil rights community has 
done to try and beat back those efforts, and what particular 
package of policies do you feel would be effective in actually 
meeting the need to protect American workers, especially 
minority American workers? What should we be doing to help 
them?
    Mr. Henderson. Well, thank you, Representative Lofgren, for 
the question. I appreciate it.
    If you don't mind, I intend to answer it. But let me make 
one quick statement before I do. First, I want to challenge the 
premise of Chairman Smith's question about whether African-
American legislators represent effectively the constituents for 
whom they are sent to Congress, on whose behalf they are sent 
to Congress, and whether African-American leaders within 
organizations like the NAACP, of which I am a life member and 
at one point a representative of the NAACP in its Washington 
bureau, whether these organizations and elected officials 
address the interests of their constituents.
    First, with regard to the elected officials, repeatedly 
they are returned to Congress with higher margins of electoral 
support than many of their colleagues, regardless of party 
affiliation. And my own view, the best evidence of whether 
constituents feel that their interests are being well served is 
whether they vote regularly for the candidates who come before 
them.
    The wave election that Mr. Rodriguez celebrates as a Tea 
Party leader is evidence that when constituents are 
dissatisfied in some way with their representatives, they vote 
them out. With regard to African-American leaders, the complete 
opposite tends to be the case.
    Now with regard to the NAACP, we malign that organization 
to suggest in some way that they have no commitment to the 
interests of African Americans vis-a-vis the issue of job 
displacement. Certainly, the NAACP recognizes that the 
immigrant population includes both Africans and representatives 
of the Caribbean, as well as Latinos and representatives of 
other communities worldwide.
    Their interest is no different than any other American who 
traces his or her ancestry back to a place other than the 
United States and who seeks to ensure that a system is applied 
fairly.
    And on one last question, anecdotal evidence has its place. 
We all use it. It could be evaluated on the merits of whether 
or not it is useful to the Committee. However, hyperbole serves 
no one's interest. And to suggest that somehow the Obama 
administration has failed to enforce immigration laws, when the 
evidence would suggest that the level of immigration 
enforcement is, in fact, higher than previously existed under 
the Bush administration is the best evidence of whether the 
Administration is enforcing the law.
    Now, with regard to the question that you have asked about 
various recommendations that have been made, it is our view 
that to suggest somehow that we can solve the problem of high 
unemployment that has persistently bedeviled the African-
American community in this country by simply deporting the 
undocumented not only is unfounded, it creates a myth that 
suggests somehow it is the undocumented who caused the problem.
    I wanted to note while both Mr. Smith and Mr. Conyers were 
here that they collaborated recently on the enactment of a bill 
called the Fair Sentencing Act, along with Sheila Jackson Lee 
and many others who helped bring a measure of fairness to the 
application of drug policies that had previously skewed the 
level of enforcement that African Americans endured. That 
bipartisan effort deserves to be recognized because it did 
address one of the underlying problems that does affect the 
ability of African Americans to obtain the kind of employment 
for which they are qualified.
    I would also say, however, that we believe targeted 
initiatives that include the enforcement of existing labor 
laws, as some have suggested that these laws only involve the 
issue of deporting undocumented workers, when, in fact, 
maintaining a fair workplace, enforcing labor standards, 
ensuring that there is public education to inform the public of 
the true cause of the depression are all very important.
    And last point, I cited the Lake poll not because it was 
overwhelmingly favorable to our view. It is, quite frankly, 
based on the anecdotal evidence that we know exists. On the 
other hand, the depth of commitment to a legalization program 
and comprehensive legal immigration reform among African 
Americans belies the argument of some that African Americans 
somehow are not being served by comprehensive immigration 
reform when, in fact, the opposite is true.
    Ms. Lofgren. If I may, Mr. Henderson, I didn't, in any way, 
mean to criticize your citing Lake.
    Mr. Henderson. No, no, no, no.
    Ms. Lofgren. I just figured for our conservative friends, 
the Fox News poll might be more persuasive.
    And I yield back the balance of my time, Mr. Chairman.
    Mr. Gallegly. I thank the gentlelady.
    The Vice-Chairman of the Committee, my good friend from 
Iowa, Mr. King?
    Mr. King. Thank you, Mr. Chairman.
    I thank all the witnesses for coming forward to testify 
today, and it is always an engaging subject, taken on here for 
some time.
    I would like to first go across the spectrum of some of the 
issues that seems as though, as I read through some of this 
testimony and listen to other oral testimony, that there is a 
need for some clarification. And I want to lay out this. My 
level of consistency with regard to the approach with the 
Constitution and the law and the rule of law, and the 
consistency is this.
    The terms used by Mr. Rodriguez, what is it about 
``illegal'' they don't understand? Illegal immigration is 
intolerable to a free society. It violates the rule of law. It 
undermines an essential pillar of American exceptionalism, 
which is the rule of law, and it undermines our respect for the 
rule of law as a civilization, as a culture.
    If we lose that, then there won't be as big a reason for 
people to leave other countries and come here. And I cannot 
understand why anyone would seek to re-create the very 
conditions that were the motivation for them to leave. I will 
stand on the rule of law in every circumstance I can.
    The second one is I believe in a tighter labor supply. I 
believe that labor is a commodity, and it may not be exactly 
tradable on the Board of Trade like corn or beans or gold or 
oil, but it is a commodity. And the value of it is determined 
in the end by supply and demand in the marketplace.
    If people seek to market their skills in an organized 
fashion, in a legal fashion, they have complete right to do 
that. And if they seek to market their skills by improving them 
and individually marketing them, they have a perfect right to 
do that in this country, and we need to enhance those 
conditions so that this Nation once again becomes a 
meritocracy. That is another thing that has attracted people 
from all countries on the planet to come here to the United 
States.
    And it is one of the big reasons why we have skimmed the 
cream of the crop off of every donor civilization in the world. 
They came here because we had the rule of the law and because 
we have established a meritocracy. Today, we have devolved down 
into a welfare state, which complicates this discussion 
considerably.
    But a tighter labor supply improves the wages, the working 
conditions, and the benefits for everyone involved in the labor 
market. And so, in order to tighten the labor supply, we need 
to close the border, and we need to shut down the jobs magnet. 
And we need to ensure that legal workers are the only ones 
working here in the United States, and there needs to be an 
extra benefit to American citizenship.
    It needs to be precious, and it needs to be a reward for 
having earned it, not something that is granted by a carte 
blanche because of somehow there have been so many lawbreakers 
that we don't have the will, apparently, to enforce the law.
    I am not for mass roundups or deportations in that fashion. 
I believe that local law enforcement, working in cooperation 
with Federal law enforcement officers, will do a fine job when 
they encounter individuals for other reasons. And if we are not 
willing to face the concept of deportation, then let us not go 
through the charade of thinking we are going to enforce any 
other immigration laws.
    Then I want to point out also that the idea of equal 
opportunity is something where I have significant solidarity 
with Dr. Martin Luther King Jr. He asked for equal opportunity. 
He didn't ask for special privileges.
    And I believe that every race, every ethnicity, has the 
innate ability to compete in a free and open society with equal 
opportunity. And we do a disservice to anyone whom we give 
special privileges to because they don't have to compete then. 
They get handed something that otherwise is precious because it 
has been earned.
    So that covers some of them. Then noticed that Mr. 
Henderson spoke to the effort of some to amend the 
Constitution, specifically the 14th Amendment. And you will be 
glad to know, Mr. Henderson, that I stepped into that 
discussion because I thought a couple of United States Senators 
had gone a little too far in their discussion about the need to 
amend the Constitution and the 14th Amendment to put an end to 
the anchor babies issue.
    Somewhere between 340,000 and 750,000 babies are born in 
this country to parents who are illegal. And that creates an 
unnecessary magnet that further undermines the rule of law. 
There is a clause in the 14th Amendment that says ``and subject 
to the jurisdiction thereof.'' If that clause has meaning, then 
I contend Congress has the authority to repair that situation 
of anchor babies without having to amend the Constitution, but 
do so by statute.
    And I would go further and say we should look at our 
society and see what we have here in this country. There are 
vast parts of America where things work right, where people 
live generation after generation. They educate their children. 
They get jobs. They live with the hope that there is a future 
for them in the neighborhoods that they grow up in.
    And I work to see to it that every generation has that 
chance in every neighborhood. But I don't see that opportunity 
in every neighborhood. There are different cultures that have 
risen, partly because the Federal Government has turned this 
into a welfare state.
    If you look at the reservation system in America, and I 
represent two of those and have now for 14 years, and there is 
a situation there where there is a dependency that has taken 
some of the most independent people in the world and put them 
into a dependency situation. And we have seen that replicated 
in the inner cities in the major cities of America with the 
same results.
    We have to turn this culture around, and it needs to be one 
that respects the honor and the dignity of work, one that is 
focused on the quality of our lives and the underpinnings of 
American exceptionalism, but one that also a broad formula, a 
broad formula that addresses this.
    We should be working to increase the average annual 
productivity of all of our people. If we do that, we increase 
their dignity, their independence, and their standard of 
living.
    And with that, Mr. Chairman, I didn't come to a question, 
but I would yield to the Chairman and thank you for your 
attention.
    Mr. Gallegly. Thank you, Mr. King.
    Before I yield to the gentlelady from Texas, I would yield 
to the Ranking Member for a unanimous consent.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I would request unanimous consent to enter into the record 
statements, important voices from labor, such as William Lucy, 
president of the Coalition of Black Trade Unionists, and Gerald 
Hudson, the executive vice president of the Service Employees 
International Union;* a joint statement of unity from the 
Reverend Derrick Harkins, the senior pastor of the Nineteenth 
Street Baptist Church, and Sam Rodriguez, Reverend Sam 
Rodriguez, president of the National Hispanic Christian 
Leadership Conference; and statements from the Asian-American 
Justice Center, the National Asian Pacific American Women's 
Forum, the National Immigration Law Center, the National 
Immigration Forum, and the American Immigration Lawyers 
Association.**
---------------------------------------------------------------------------
    *See insertion, page 7.
    **The statement by the American Immigration Lawyers Association was 
withdrawn from insertion in the record of this hearing.
---------------------------------------------------------------------------
    Mr. Gallegly. Without objection.
    Ms. Lofgren. Thank you.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                   __________

    Mr. Gallegly. The gentlelady from Texas, Ms. Jackson Lee?
    Ms. Jackson Lee. Mr. Chairman, thank you very much.
    And let me thank the Ranking Member for the opportunity and 
allow me to express my appreciate for all of the witnesses. 
Whenever we have Americans who are able to come and participate 
in this participatory democracy, we are the better for it. 
Whether we agree or disagree, we are the better for it.
    Mr. Rodriguez and I have worked together, and it is good to 
see him again. And certainly, Dr. Swain and I have participated 
in some of these similar hearings. Certainly, Dr. Morris and 
Mr. Henderson.
    Let me just, Dr. Swain, I know that I had an academic 
background from you before. Where was your undergraduate and 
graduate degrees?
    Ms. Swain. I have five degrees. I started off----
    Ms. Jackson Lee. Can you just tell me the schools because 
my time is short?
    Ms. Swain. Okay. My Ph.D. is from the University of North 
Carolina at Chapel Hill. I have two master's degrees, one from 
Yale and one from Virginia Polytechnic Institute. And I started 
life as a high school dropout with my first degree from a 
community college. So I have come from the bottom and 
understand working people.
    Ms. Jackson Lee. Thank you.
    Dr. Morris?
    Mr. Morris. My doctorate is from MIT, master's in public 
administration from the Maxwell School of Syracuse. My 
undergraduate, where I am going back for my 50th year this 
year, is from Colgate University.
    Ms. Jackson Lee. Okay. And Mr. Henderson, I won't ask you 
because I have already heard.
    Mr. Rodriguez?
    Mr. Rodriguez. I am a graduate of Brigham Young University.
    Ms. Jackson Lee. Okay. Let me first say that the 
Congressional Black Caucus have been champions for higher 
education. The very existence of historically Black colleges 
and Hispanic-serving institutions through this very rocky road, 
particularly in the last Administration, has been at the behest 
of the Congressional Black Caucus and its collaboration with 
the Hispanic Caucus, and we are very proud of the opportunities 
that we have given to young people.
    In addition, we have been champions, I know that I will not 
take a back seat to anyone on supporting community colleges, 
which happen to be probably some of the most diverse 
institutions that we could have.
    I can't compete with you, Dr. Swain. I have an 
undergraduate degree from Yale and a law degree from the 
University of Virginia. And so, I am looking forward to having 
the opportunity to go back and get a number of others. I will 
check you out at that time.
    But in any event, I wanted to just say to you that this 
hearing reminds me of a hearing that is dead on point for 
comprehensive immigration reform. This is the testimony. I 
don't have to go any further to reinforce. Everything you have 
said will provide for the database for comprehensive 
immigration reform, which the President of the United States, 
Sheila Jackson Lee, Emanuel Cleaver--I want to cite some names 
here--chairman of the CBC, and Ms. Chu, Mr. Gutierrez, 
representatives from several other organizations, and I have 
them here, Mr. Henderson, of course, comprehensive immigration 
reform.
    It can't get any better than this. So let me proceed with 
my questioning, and Mr. Henderson, I am going to focus a little 
bit on you. And I will allow, maybe yield to Dr. Swain for a 
moment.
    First of all, I have a document here from the Murphy Law 
Firm 2010 that indicates that ICE raids have resulted in a 45-
fold increase in criminal worksite arrests. So there has been 
no back-stepping under this Administration on raids. Whether or 
not they have been well, at one point, I do know that we have 
halted raids because ICE has been so effective in worksite 
investigation.
    While I have that point, I want to take a personal 
privilege, Mr. Chairman, and put in the record, as I have done 
before, my deepest sympathy to Jaime Zapata's family, who was 
killed in Mexico when two gunmen attacked him with AK-47s. I 
would prefer having a hearing on the tragedy and crisis of 
dealing with the loss of this patriot than to waste our time as 
we are doing.
    But in any event, since we are, let me quickly move to 
questions and to point out.
    Mr. Gallegly. Without objection, if you would like to have 
that entered into the record, we will enter that into the 
record.
    Ms. Jackson Lee. Just as my statement, Mr. Chairman. Thank 
you for your kindness, to offer the sympathy of this Committee.
    But I have a document here from the GSA that is apologizing 
for failing to meet the goals of MWBE businesses for the 
Federal Government. Small businesses, minority-owned businesses 
create jobs. I have a document that I would like to put in the 
record where the Bush administration submitted an anti-
affirmative action brief.
    Now these are all youngsters. I am a youngster as well. And 
frankly, and Mr. Chairman, would you indulge me just so I can 
finish and get my question here?
    Mr. Gallegly. If you would like to enter that into the 
record, we will do that without objection.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                 ----------                              

    Ms. Jackson Lee. I would.
    Mr. Gallegly. And the time of the gentlelady has expired.
    Ms. Jackson Lee. But Mr. Chairman, please, I would like to 
finish my question. I think others have gone over as well. I 
just am polite enough to----
    Mr. Gallegly. Well, we have been very, very----
    Ms. Lofgren. May I ask unanimous consent that the 
gentlelady be given an additional 1 minute?
    Mr. Gallegly. One minute. Without objection.
    Ms. Jackson Lee. Thank you very much.
    So I cite a lot of anti African-American policies, which 
would be the kind of effort that I would like to see us focus 
on, whether affirmative action is relevant, whether small 
businesses or minority-owned businesses.
    I am going to give this question to you, Mr. Henderson. I 
would like you to be as provocative as ever. We are 150 years 
under slavery, African Americans. We have administrations, 
Republicans, who are fighting affirmation action. We have the 
Republican Congress cutting economic development assistance $16 
million, Minority Business Development Agency $2 million, and 
job training $2 billion.
    Would you please answer, what is more important to African 
Americans, Hispanics, Asians, and other poor Americans without 
jobs than a question of illegal immigration that doesn't get to 
the question of fixing the problem of immigration reform? Mr. 
Wade Henderson, please.
    Mr. Henderson. Well, Congresswoman Jackson Lee, first of 
all, thank you for your question.
    I think the framing of the issue that you have presented 
raises an opportunity to address one of the issues Mr. King 
raised in his presentation about the meaning of equal 
opportunity in American life. Martin Luther King's principles 
are shared by many Americans, and certainly I believe in the 
principles of Dr. King.
    But I also note that we, as a Nation, were founded with the 
stain of slavery that compromised our democracy from its 
inception. It took a civil war, the passage of three 
constitutional amendments, and a virtual 150 years of concerted 
struggle to reach the level of ``equal opportunity,'' which I 
will put in quotes, that we enjoy today.
    I grew up as a native in Washington, D.C., the Nation's 
capital. The first quarter of my life, I grew up under legal 
segregation perpetrated and extended by the Federal Government, 
which we now salute. I am proud that I have participated in the 
change that has made for a more perfect union.
    Ms. Jackson Lee. Should we be talking about affirmative 
action and job training?
    Mr. Henderson. This is my point.
    Mr. Gallegly. Would the gentleman please summarize? We are 
well above time.
    Mr. Henderson. I will definitely summarize. Denial of equal 
opportunity in education, denial of equal opportunity in the 
application of our criminal justice policies, denial of equal 
opportunity in access to housing and jobs compromises the 
principle of equal opportunity and continues to contribute more 
directly to the high persistent unemployment rate that African 
Americans endure and not the issue of illegal immigration, as 
has been cited by virtue of this hearing.
    And Congresswoman Jackson Lee's observations about how 
Government policy interacts in ways that deprive the very 
community that we are talking about of the equal opportunity we 
purport to support is, itself, the best evidence of the shall 
we say inconsistent application of policies.
    Ms. Jackson Lee. Thank you, Mr. Henderson.
    Mr. Gallegly. The gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you for being here, Dr. Swain. It is good to see you 
again.
    I have some questions for as many of you as I can get in 
the next 5 minutes.
    Mr. Rodriguez, you are from San Antonio. You probably know 
more about the coming of people into the United States legally 
and illegally than probably anyone in the room. My wife is from 
Harlingen, down in the valley, and have been there numerous 
times and the border numerous times to see the situation.
    The General Accounting Office, those are the folks that 
keep statistics, said in the last 2 or 3 weeks that 44 percent 
of the border is under some control of the United States. Only 
15 percent is airtight. That means we got the control of those 
15 percent of the border.
    And if only 44 percent is under some control of the U.S., 
that means 56 percent is not under the control of the U.S. or 
Mexico. It is somebody else controls that, or no one does--the 
drug cartels, the Zetas, whoever. Which allows everybody to 
come into the United States if they want to, the good and the 
bad and the ugly. And we are getting a lot of all of them into 
the United States.
    I have read your testimony. I am aware of your background. 
And I have this question for Dr. Swain as well. There is a 
philosophy in this country by some that the rule of law doesn't 
apply to everybody that comes into the United States. If you 
are coming here for a certain reason, we will give a wink and a 
nod, and you can come on across. And then, eventually, we will 
let you stay under some type of program.
    But if you are somebody else, like a drug dealer or someone 
we don't like, we are going to enforce the rule of law if you 
come into the United States, and we are going to keep you from 
coming in. If you come in, we are going to send you back where 
you came from. So that seems to discriminate on following the 
rule of law, whether it is on purpose or just by negligence.
    What do you think about the rule of law as whether it 
should apply to everybody or just some people?
    Mr. Rodriguez. The rule of law, sir, has got to apply to 
everybody equally. That is the bottom line. This is a country 
based on the rule of law. When it begins, when we begin to set 
it aside, when we begin to make excuses, when we begin to say, 
well, that situation is different from this situation, then I 
am sorry--and I don't mean to offend attorneys in this room--
but that is when trial attorneys begin to take over and try to 
find loopholes in life.
    There are no loopholes in life. When you have done 
something wrong, you have done something wrong. You, yourself, 
in Harris County know of that situation where an undocumented 
alien killed a police officer. That person had been stopped and 
held before, and because apparently they didn't break the law 
enough for some folks or to cover whatever issue there was 
there for them to be deported, they weren't deported. And they 
committed a terrible crime.
    This is what we see in the Hispanic communities across the 
country because that is where you find the illegal aliens. That 
is where you find them. We are in the Hispanic community, by 
large--at least in San Antonio. Again, speaking from my 
experience as the Tea Party president in San Antonio, Hispanics 
are very, very tired of hearing excuses for illegal aliens who 
are here in the United States.
    Mr. Poe. I represent, as all Members of Texas delegation 
do, numerous Hispanics. And we constantly are helping folks get 
here the right way. It takes years. The whole immigration 
system, I think, needs to be set aside, and we start over with 
a simpler model. So it is people can get here quicker and more 
secure. That is a different issue.
    But I hear constantly anecdotally, ``I came here the right 
way. I waited my turn. I took that oath. There is no prouder 
American than me.'' That is what they tell me when they go 
through the process and sworn in by one of our Federal judges 
later.
    Do you think those comments by--in an anecdotal sense ring 
true through people who come here the right way, then want to 
become a citizen. Some of them go off to war and fight for 
America, are killed in Afghanistan, all to be an American 
citizen. But they are all coming the right way. Can you make a 
comparison between that philosophy and those who just come over 
here?
    Mr. Rodriguez. Definitely, there is a big difference. 
Because when you start out to be an American citizen and you go 
through the legal process and you go through the whole 
education, through the understanding of the history, through 
all the education process, there is a big difference between 
that and someone who snickers. And literally, we see them 
constantly, someone who snickers because they got here 
illegally, you know?
    There is a famous Latino radio personality, Piolin, he is 
called. And at the height of the immigration debate last year 
or year before last, he was snickering publicly on radio that 
he had crossed the U.S. border several times illegally. That is 
completely wrong. That is completely wrong. That sends the 
wrong message to people. That sends the wrong message to young 
people. That is just wrong on so many levels it is not even 
funny.
    On the other hand, we constantly hear from people that have 
come here legally, people who are legal immigrants, who have 
gone through the citizenship process, and they are very, very 
proud to be Americans. And they don't like illegal aliens just 
coming over and taking benefits for the sake of it.
    Mr. Poe. Thank you.
    I was going to ask those same questions to Dr. Swain. May I 
have unanimous consent for an additional minute?
    Mr. Gallegly. Without objection.
    Mr. Poe. Dr. Swain, you heard the questions. I would like 
to hear your answers.
    Ms. Swain. The breakdown in the rule of law that we see in 
the United States applies to more than just immigration 
enforcement, and I think it undermines our constitutional 
system that we have laws that are not being enforced.
    We also have a process through the Constitution for 
changing the laws that we are uncomfortable with. And until we 
change those laws that we are uncomfortable with, then we owe 
it to our fellow citizens, we owe it to each other to enforce 
the laws on the book.
    And it is not just about illegal immigration. There is 
lawlessness all around, and it is increasingly happening in the 
U.S. with people individually deciding which laws they want to 
obey. This can only lead to the breakdown of our society.
    Mr. Poe. All right. Thank you, Dr. Swain.
    I yield back the remainder of my time.
    Mr. Gallegly. The gentleman from Puerto Rico, Mr. 
Pierluisi?
    Mr. Pierluisi. Thank you, Mr. Chairman.
    I would first like to thank Congresswoman Waters for 
allowing me to take this turn. I have to say that I have been 
waiting patiently to speak.
    I feel disturbed. The first thing that I will say is that I 
hear all of this about we are a nation of laws. Let us not 
forget we are also a nation of immigrants.
    While we have every right to regulate immigration, enforce 
our immigration laws, it makes no sense to demonize immigrants 
in America. That goes against the fabric of our society. It 
goes against our roots.
    I can only surmise, but I have to say that I have no doubt 
that there are hundreds of thousands, if not millions, of 
American citizens or documented residents in America who at one 
point in their lives did not have their papers in order. It has 
happened throughout our history.
    I have also heard that this is the rule of law, that what 
is going to happen if we don't enforce the rule of law? Well, 
let me be plain about it. If the rule or the law is not 
working, you change it.
    What makes no sense is to have a system that is not 
working. What makes no sense is to have about 12 million people 
out there we cannot even account for who are in fear. And then 
one day we come here, and they are blamed for our crime 
problems? The other day they are blamed for our economic 
troubles.
    And where are the studies? The majority of the studies do 
not support either proposition. That is why I am disturbed.
    I brought a couple of--and then one last thing, Mr. 
Rodriguez. I am a Puerto Rican American. As a Puerto Rican 
American, I am an American citizen by birth. I don't like to be 
stigmatized either, but I do something about it. I am trying to 
fix the system so that we don't have all those fellow Hispanics 
facing what they are facing these days.
    I have a couple of statistics. If I hear you right, Mr. 
Rodriguez, you are saying that all we have to do is enforce the 
laws and the border. Well, the first statistic I am going to 
tell you is that 4 out of 10 undocumented immigrants in this 
country are here because they overstayed their visas, not 
because they crossed the border illegally.
    So that is one thing. Your proposition wouldn't fix that.
    Second point, if the premise is that this Government is not 
doing enough, our Federal Government is not doing enough, I 
will just give you statistics. In 2007, $7.3 billion were 
assigned for border protection. Less than 3 years later, 2010, 
$10.1 billion assigned to border protection.
    I am not an expert in math, but at least that is like a 40 
percent increase. So it is not like we are not doing something 
about it. It is just that the system, again, is not working.
    Now, I noticed Mr. Rodriguez as well, and I will let you 
comment because I don't want this to be a one-way exercise, in 
fairness to you. But I also heard about your father's, your 
struggles and so on. But I wonder whether you know that all 
major labor unions in this country reject your solution, your 
proposed solution, let us simply enforce the law. Let us do 
more of the same.
    The unions do not support that. AFL-CIO, Change to Win, 
representing 16 million workers in America and more than 60 
unions argue that continuing our failed and enforcement-only 
approach will merely push undocumented workers further into the 
shadows where they are more susceptible to abuse and 
exploitation.
    What do you have to say, Mr. Rodriguez, about my feelings 
and the statistics that I am sharing with you?
    Mr. Rodriguez. Well, apparently, you are pretty passionate. 
But let me begin by, first of all, the situation of my comments 
about border security.
    I recognize that 40 percent overstay. And when I talk about 
border security, I am talking about enforcement across the 
border of not only at the border, but across the spectrum also 
of those that have overstayed, trying to find them and taking 
the proper action. That is what we need to do.
    Secondly, if we would enforce--if we would enforce the 
employer sanctions, that would take a magnet. That would be a 
great, a great step in taking one magnet away for these people 
staying here, okay?
    Third, you talk about the difference between the Bush 
administration and what the current Administration has done as 
far as the budget for enforcement. Well, that is great. That is 
great. But we weren't happy with the Bush administration.
    Again, I am not here representing the Republican Party, 
sir. I am here representing the San Antonio Tea Party. And the 
San Antonio Tea Party, as well as other Tea Parties, is a 
conservative organization, and we are not happy with anything 
that is not enforcing the law, okay, whether it is Republican 
or Democrat. So that is third.
    The next thing is that when we want--if we want to, when 
you talk about the union, well, in my opinion, all the unions 
want to do is grow and get more members, okay? I don't think 
that they really want to protect American workers at this 
point. If they did, then they would be trying to enforce 
illegal immigration laws.
    So that is where I am coming from.
    Mr. Pierluisi. My time is up, Mr. Chairman. Thank you.
    Mr. Gallegly. The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And appreciate so much all of the witnesses being here and 
all your time.
    And I had to step out briefly, but I hadn't heard anybody 
demonizing immigrants. In fact, the people I know here on both 
sides of the aisle all feel that one of our great strengths as 
a country is because we are a nation of immigrants. Because 
people come from all over, and we enforce the law more fairly 
than any nation in history. And therefore, that gives everybody 
a chance who really wants to pursue it.
    What drove me off the bench is seeing a government--as a 
felony judge, I was seeing more and more young women with 
children coming in who had had a check dangled in front of 
them, and friends say, ``I would just drop out of high school. 
Government will send you a check.''
    And it was breaking my heart to see these women charged 
with felonies for going and getting a job and not reporting it 
because they were just trying to get out of the hole. But they 
were lured into it by well-meaning, well-intention legislation.
    And I am concerned that we are doing the same thing with 
illegal immigration. We are told by political advisers on both 
sides of the aisle, gee, if you take too strong a stand on 
border security and legal immigration, then you can't have a 
majority. You have got to back off of that because you will 
offend Hispanics.
    But it is my impression and we have been told, for example, 
in here before that over 70 percent of gang members are 
illegally here. And it also seems that most, that a majority of 
the crimes by illegal immigrants are against Hispanics. So I 
would think it would be a great thing and a great help to 
Hispanic community to enforce legal immigration to protect 
Hispanics.
    Am I wrong, Mr. Rodriguez?
    Mr. Rodriguez. Not at all, sir. Let me give you another 
example, another personal example. Because again, when we watch 
from C-SPAN, the general folks out in the grassroots, I am 
sorry, and I don't mean to offend you--not you personally.
    Mr. Gohmert. Oh, go ahead.
    Mr. Rodriguez. But Members of Congress sometimes come 
across a little arrogant to us when we speak. So the only thing 
I can tell you is I am not an expert other than personal, 
personal experiences. Three weeks ago, my niece was hit in her 
car by an undocumented alien in San Antonio, okay? Didn't have 
insurance. Didn't even have a driver's license. Nothing we can 
do about that, you know?
    Just like Dr. Swain has mentioned, there is a rule of law 
problem here, and the Hispanic community in San Antonio--again, 
our Tea Party, 6,000 folks strong, a third of them are 
Hispanic, and it is growing. And they know our position on 
immigration, and it is just that we are tired.
    We see it. We see not only the issue of the violence and 
the issue of entitlements. I mean, they are here illegally. I 
am sorry. And that is what needs to be addressed.
    Mr. Gohmert. Well, as a judge, I often saw that the victims 
of illegal immigrant felonies were Hispanics that were legally 
here, and I felt an obligation, it doesn't matter what your 
race is, if you are a victim of a crime, we owe you the 
obligation to protect you. And that is part of our sworn job, 
and we hear so many saying, well, we could never deport the 
millions that are here.
    It just seems like if we enforce the law, E-Verify, and dry 
up benefits, I feel like we are corrupting the Hispanic culture 
that came with, generally speaking, a faith in God, a devotion 
to family, and a hard-work ethic, and that we are actually 
destroying that heritage by saying, here, we will throw you 
benefits like we have lured so many into ruts they can't get 
out of.
    I am very concerned, and let me just say I appreciate so 
much your taking the time. Some people may watch C-SPAN and 
say, ``Well, I wonder how much they get paid?'' Obviously, you 
didn't get paid anything. You came because you believe in what 
you came to testify about. And so, we are so very thankful for 
you.
    Thank you. I yield back.
    Mr. Gallegly. I thank the gentleman from Texas.
    The gentlelady from California, Ms. Waters?
    Ms. Waters. Thank you very much, Mr. Chairman.
    I ask that the Subcommittee and witnesses excuse my absence 
at the beginning of today's hearing. I was called to serve as 
Ranking Member on a Financial Services Committee hearing this 
morning and was, therefore, unable to arrive at this 
Subcommittee in a timely manner.
    However, I have reviewed all of the witnesses' testimony, 
and I would like to use my time to make a few observations. 
First, I ask unanimous consent to include within the record an 
online article written by Mark Krikorian, entitled ``Contra 
Nadler--Yes, Reach Out to Immigrants, But Not by Admitting More 
of Them.'' The article was published in the National Review 
Online.
    In the article--well, may I submit that for the record, Mr. 
Chairman?
    Mr. Gallegly. Without objection, it will be made a part of 
the record of the hearing.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Ms. Waters. In the article, Mr. Krikorian, the executive 
director of the Center for Immigration Studies, outlines in 
plain language why all Republicans should oppose immigration 
reform. As we discuss and debate these issues regarding 
immigration policy, I think it is important for the Committee 
and the public to be aware of any biases that may impact the 
witnesses' testimony.
    Since the majority often calls a representative from the 
Center for Immigration Studies to testify, I am concerned that 
this organization's research may be more politically motivated 
than out of a genuine concern for the unemployment rate among 
American minorities.
    I understand they don't have a witness here today, but in 
the editorial for the National Review Online, Mark Krikorian 
writes, and I quote, ``On the contrary, the threat to the GOP 
and its agenda is not the party's opposition to mass 
immigration, but mass immigration itself. The majority of 
Hispanics vote Democratic, and this would surprise no one 
knowledgeable about American history. That is what immigrants 
and the native-born closest to immigration have always done.''
    As a Member of Congress representing both Latinos and 
African Americans, I am very disappointed with the majority's 
effort to pit minorities against one another in a blatant 
attempt to derail comprehensive immigration reform. Clearly, 
today's hearing was organized to divert attention away from the 
inability to present policies and proposals that would truly 
stimulate the American economy and help put all Americans back 
to work.
    As it is duly noted in Mr. Wade Henderson's written 
testimony, African Americans have often maintained higher 
unemployment rates than other groups. And as Mr. Frank Morris 
noted in his written testimony, these rates have links to many 
other challenges disadvantaged populations have faced in the 
United States.
    Yet, by and large, my colleagues on the other side of the 
aisle have been collectively against job training grants, 
summer jobs funding, community development block grant funding, 
foreclosure prevention programs, heating subsidies for low-
income families, policies promoting diversity in Federal 
contracting, eliminating the crack cocaine sentencing 
disparity, eliminating the mandatory minimum sentencing, 
increases in Title VI funding for public schools, fully funding 
Pell grant, fully funding the EEOC to police racial 
discrimination, and reforms in our tax code that would provide 
for economic opportunity for those who are not included among 
the Nation's wealthiest top 1 percent of households.
    The Congressional Black Caucus and the Congressional 
Hispanic Caucus have been at the forefront in championing 
progressive policies that take into account the challenges that 
American minorities confront. One need only review the 
Republicans' voting records to understand their political 
priorities, and it does not include a deep concern for the 
working class or American minorities.
    Today, I continue to support a comprehensive framework that 
includes reforms to our deportation and detention policies, as 
well as border security. Reform must also include a fair path 
to citizenship and some penalty for those who have been in the 
U.S. illegally. Individuals who have lived in the U.S. for many 
years while raising their families, paying taxes, and paying 
into Social Security should have the opportunity to become 
legal citizens in a fair and efficient process.
    We must also hold employers accountable for assessing 
increased penalties for exploiting undocumented immigrant 
labor.
    Mr. Chairman, comprehensive reform is the only way that we 
will be able to create an immigration system that is fair, 
feasible, and protects American workers. A fragmented reform 
policy that focuses only on E-Verify and deportation will yield 
unintended consequences that will negatively impact American 
workers.
    Now this is what we recently learned. Seven hundred 
thousand jobs would be lost under the GOP cuts. This is a 
report by the independent economic analyst Moody's Analytics. 
Chief economist Mark Zandi prepared the report. The GOP plan 
slashes $61 billion in Federal appropriations over the next 7 
months. This is in the Washington Post.
    So let me just conclude by saying for those of us who are 
on the front lines, who are elected in districts where we have 
significant Black, Latino, and Asian populations, have to be 
responsible. We cannot afford to allow people who have 
political agendas to divide us. It is easy for those who have 
no responsibility, who don't have to answer to the public, to 
come with their undocumented accusations and talk about----
    Mr. Gallegly. Would the gentlelady please try to summarize? 
We are----
    Ms. Waters. Yes. Let me just mention the kind of 
undocumented testimony that we get here. In the testimony by a 
guest such as Dr. Carol Swain, she states, ``A study at the Pew 
Hispanic Center found that during the current recession, 
foreign-born workers have gained employment while native 
workers continue to lose jobs.''
    Now there is no further discussion of this. There is no 
attempt to have us understand what this study was about and how 
it worked. A blanket statement that says that this was found. 
This is outrageous and ridiculous, and I yield back the balance 
of my time.
    I wish I could stay to hear further from these witnesses, 
but I really don't think it is worth it. And I would like to 
thank Mr. Wade Henderson for being here today.
    Ms. Swain. I would like to respond to that statement.
    Mr. Gallegly. I will give the witness 30 seconds to 
respond.
    Ms. Swain. I would assume that as a Member of Congress, 
that she should be familiar with the studies put out by the Pew 
Hispanic Center, and that study is well documented. It is 
reputable. If anything, it is considered pro Hispanic. And so, 
she should be familiar with that study. It is cited. So she 
should go read it for herself.
    Mr. Gallegly. Thank you, Dr. Swain.
    At this time, I would yield an additional 30 seconds to the 
Ranking Member for a closing statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I just wanted--I know all of the witnesses had to stretch 
to be here, and it is all appreciated. But I know, in 
particular, Mr. Henderson had to change all sorts of things 
around on his schedule. So I wanted to publicly thank him for 
completely upending his life to be here today, and it is very 
much appreciated.
    And with that, Mr. Chairman, I would yield back with 
thanks.
    Mr. Gallegly. I thank the gentlelady.
    And with keeping with her comments, I would like to thank 
all the witnesses for their testimony today.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond promptly as they can in order to get the answers made a 
part of the record of the hearing.
    Without objection, all Members will have 5 legislative days 
to submit any additional material for inclusion in the record.
    And with that, again, I want to thank the witnesses and----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gallegly. I will yield.
    Ms. Lofgren. And I look forward to getting the study from 
Dr. Morris that we mentioned earlier.
    Mr. Gallegly. That is a part of the record.*
---------------------------------------------------------------------------
    *The information referenced for inclusion in this record was not 
received by the Subcommittee prior to the printing of this hearing.
---------------------------------------------------------------------------
    And with that, thank you all again.
    The Subcommittee stands adjourned.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Pedro Pierluisi, a Representative 
 in Congress from Puerto Rico, and Member, Subcommitte on Immigration 
                         Policy and Enforcement
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

        Additional Material submitted by Carol M. Swain, Ph.D., 
     Professor of Political Science and Law, Vanderbilt University
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
